<html>
<title> - HEARING ON THE NOMINATIONS OF KRISTINE SVINICKI (REAPPOINTMENT), ANNIE CAPUTO AND DAVID WRIGHT TO BE MEMBERS OF THE U.S. NUCLEAR REGULATORY COMMISSION, AND THE NOMINATION OF SUSAN BODINE TO BE ASSISTANT ADMINISTRATOR OF THE OFFICE OF ENFORCEMENT AND COMPLIANCE ASSURANCE OF THE U.S. ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 115-44]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 115-44

HEARING ON THE NOMINATIONS OF KRISTINE SVINICKI (REAPPOINTMENT), ANNIE 
 CAPUTO AND DAVID WRIGHT TO BE MEMBERS OF THE U.S. NUCLEAR REGULATORY 
    COMMISSION, AND THE NOMINATION OF SUSAN BODINE TO BE ASSISTANT 
ADMINISTRATOR OF THE OFFICE OF ENFORCEMENT AND COMPLIANCE ASSURANCE OF 
                THE U.S. ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               BEFORE THE
                               
                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


         Available via the World Wide Web: http://www.fdsys.gov
              
              
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-002 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="492e3926092a3c3a3d212c2539672a262467">[email&#160;protected]</a> 
                          
              
              
              
              COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 13, 2017
                           OPENING STATEMENTS

Graham, Hon. Lindsey, U.S. Senator from the State of South 
  Carolina.......................................................     2
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     2
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     4
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    10

                               WITNESSES

Svinicki, Kristine, nominated to be Chairman, U.S. Nuclear 
  Regulatory Commission (reappointment)..........................    11
    Prepared statement...........................................    13
    Response to an additional question from Senator Booker.......    15
    Responses to additional questions from:
        Senator Markey...........................................    15
        Senator Sanders..........................................    21
        Senator Sullivan.........................................    32
        Senator Whitehouse.......................................    34
Caputo, Annie, nominated to be a member of the U.S. Nuclear 
  Regulatory Commission..........................................    38
    Prepared statement...........................................    40
    Responses to additional questions from:
        Senator Carper...........................................    43
        Senator Markey...........................................    45
        Senator Sullivan.........................................    78
        Senator Whitehouse.......................................    81
Wright, David, nominated to be a member of the U.S. Nuclear 
  Regulatory Commission..........................................    90
    Prepared statement...........................................    92
    Responses to additional questions from:
        Senator Carper...........................................    96
        Senator Markey...........................................   101
        Senator Sanders..........................................   111
        Senator Sullivan.........................................   135
        Senator Whitehouse.......................................   138
Bodine, Susan, nominated to be Assistant Administrator, Office of 
  Enforcement and Compliance Assurance, U.S. Environmental 
  Protection Agency..............................................   309
    Prepared statement...........................................   311
    Responses to additional questions from Senator Carper........   315
    Response to an additional question from Senator Cardin.......   318
    Responses to additional questions from:
        Senator Markey...........................................   318
        Senator Sanders..........................................   322
        Senator Whitehouse.......................................   333

 
HEARING ON THE NOMINATIONS OF KRISTINE SVINICKI (REAPPOINTMENT), ANNIE 
 CAPUTO AND DAVID WRIGHT TO BE MEMBERS OF THE U.S. NUCLEAR REGULATORY 
    COMMISSION, AND THE NOMINATION OF SUSAN BODINE TO BE ASSISTANT 
ADMINISTRATOR OF THE OFFICE OF ENFORCEMENT AND COMPLIANCE ASSURANCE OF 
                THE U.S. ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                         TUESDAY, JUNE 13, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
room 406, Dirksen Senate Building, Hon. John Barrasso (Chairman 
of the Committee) presiding.
    Present: Senators Barrasso, Inhofe, Capito, Boozman, 
Wicker, Ernst, Sullivan, Carper, Whitehouse, Gillibrand, 
Booker, Markey, Duckworth, and Harris.
    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today, we will consider the nominations of three 
individuals to serve as members of the U.S. Nuclear Regulatory 
Commission: Kristine Svinicki, current member and Chair of the 
NRC; Annie Caputo, Senior Policy Advisor on this Committee's 
majority staff; and David Wright, President, Wright Directions, 
LLC.
    We will also consider the nomination of one individual, 
Susan Bodine, Chief Counsel on this Committee's majority staff, 
to serve as Assistant Administrator, Office of Enforcement and 
Compliance Assurance--OECA--at the U.S. Environmental 
Protection Agency.
    I applaud the President's nomination of such experienced 
Americans and dedicated public servants. The four nominees 
before us today are all well qualified candidates. Three are 
well known to members of this Committee and staff. One is not 
well known, and that is why Senator Lindsey Graham is here 
today to bring to the attention of the Committee the nominee 
from his home State of South Carolina.
    Senator Graham, if it is OK with you, based on schedules, I 
would hope you could make an introduction at this time.

           OPENING STATEMENT OF HON. LINDSEY GRAHAM, 
         U.S. SENATOR FROM THE STATE OF SOUTH CAROLINA

    Senator Graham. Thank you, Mr. Chairman.
    It is my pleasure to introduce David to you. We served 
together in the South Carolina House of Representatives for 2 
years, so I have known David for a long time. His mother, 
Irene, is with him. This is a big day for the Wright family. I 
want to thank the President for nominating David to the Nuclear 
Regulatory Commission.
    He is a graduate of Clemson University. We celebrated their 
national championship yesterday at the White House. Go, Tigers.
    David has an incredible background in terms of the subject 
matter. He was on the South Carolina Public Service Commission 
from 2004 to 2013. South Carolina, per capita, has the most 
nuclear power of any State in the nation. We are a pro-nuclear 
power State. I think David understands the issues surrounding 
nuclear power as well as anyone in the country.
    From 2008 to 2009 he was President of the Southeastern 
Association of Regulatory Commissioners. In 2011 and 2012 he 
was President of the National Association of Regulatory 
Commissioners. David understands the nuclear industry as well 
as anyone I know. The President chose wisely. Again, South 
Carolina's nuclear footprint is very large.
    He has been a mayor, so he knows how to get along with 
people. If you are going to be a successful mayor, you have to 
make things win-win.
    I could not recommend more highly to you David Wright. I 
want to thank the President. All of us in South Carolina are 
proud. He will hit the ground running because he knows the 
subject matter.
    Thank you very much, Mr. Chairman.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Senator Graham. We 
appreciate it. I know with a busy schedule, you probably have 
additional obligations. At this time, you are excused. Thank 
you for being with us today.
    Of the nominees this morning, two have been previously 
reported by this Committee and confirmed by the Senate by voice 
vote.
    Ms. Svinicki has served as a member of the Nuclear 
Regulatory Commission for more than 9 years, including the last 
6 months as the Chair. She was confirmed as a member in 2008. 
She was reported by this Committee by voice vote in December 
2007 and confirmed by the Senate by voice vote on March 13, 
2008.
    She was re-nominated to a second term in 2012. Again, she 
was reported successfully by this Committee by voice vote and 
confirmed by the Senate by voice vote 8 days later. She was 
designated as the NRC's Chair by President Trump in January 
2017.
    Before joining the NRC, Ms. Svinicki served in various 
staff positions in the U.S. Senate, including with the Armed 
Services Committee, where she concentrated on defense science 
and technology policy and defense related atomic energy 
activities.
    She also worked as a nuclear engineer at the Energy 
Department and as an energy engineer for the Wisconsin Public 
Service Commission.
    She was honored with the Woman of the Year Award by the 
Women's Council on Energy and Environment in 2013 and the 
Presidential Citation Award by the American Nuclear Society 
twice, in 2012 and 2006.
    Ms. Caputo has spent more than 20 years advising Congress 
and industry on nuclear energy matters. She has served as a 
policy advisor for this Committee and for the House Energy and 
Commerce Committee for the past 12 years.
    Before that, she worked for Exelon Corporation as a 
Congressional Affairs Manager. In 2013 the U.S. Nuclear 
Infrastructure Council honored Ms. Caputo with its Meritorious 
Service Award.
    In response to Ms. Caputo's nomination, the Vice President 
of the Clean Energy Program at Third Way, a think tank once 
labeled as ``radical centrists'' by the New York Times, stated 
of the nominee, ``She has consistently worked with members on 
both sides of the aisle to promote effective nuclear regulation 
and is well respected across partisan lines for her expertise, 
professionalism, and competence. Few people are more qualified 
to fill this role at the NRC.''
    Mr. Wright has served as member and Chairman of the South 
Carolina Public Service Commission, as President of the 
Southeastern Association of Regulatory Utility Commissioners, 
and as President of the National Association of Regulatory 
Utility Commissioners. He is Chairman Emeritus of the Nuclear 
Waste Strategy Coalition, a group that includes State utility 
regulators and State attorneys general focusing on addressing 
nuclear waste policy matters.
    He has served as a member of the South Carolina House of 
Representatives and as Councilman and Mayor of the Town of 
Irmo, South Carolina. He has also owned and operated several 
different businesses and been honored with various awards.
    Ms. Bodine served as Assistant Administrator for the EPA's 
Office of Solid Waste and Emergency Response from 2006 to 2009. 
She was reported by this Committee by voice vote on July 20, 
2005, and confirmed by the Senate by voice vote later that 
year.
    She previously served as Staff Director of the House 
Committee on Transportation and Infrastructure, Subcommittee on 
Water Resources and the Environment, and as an attorney in 
private practice.
    Today's nominees will fill critically important roles in 
protecting Americans' public health and safety. The Nuclear 
Regulatory Commission ensures that nuclear power plants, 
nuclear materials, and waste are handled and used safely and 
securely.
    The EPA's role, specifically the one being discussed today, 
is responsible for enforcing our nation's environmental laws, 
including the Clean Air Act, Clean Water Act, and Superfund. 
The need for nuclear and environmental safety protection is 
bipartisan. We need to move quickly on these nominations.
    Unless today's NRC nominees are confirmed by June 30th, the 
NRC will lose its quorum. This will degrade the NRC's 
collective ability to fulfill its mission of licensing and 
regulating the nation's civilian use of radioactive materials 
to protect public health and provide for safety and security. 
The Committee must act to restore the NRC to a full slate of 
Commissioners expeditiously.
    Similarly, the EPA does not have a Senate-confirmed 
Assistant Administrator of OECA. The Committee must act to 
confirm this nominee to lead OECA quickly, so that our 
environmental laws are rigorously enforced so that polluters 
are held accountable.
    I can think of no better candidate to take on the critical 
task of leading OECA and enforcing our nation's environmental 
laws than Susan Bodine. Past EPA officials, notably from both 
Republican and Democratic Administrations, have praised Susan's 
nomination.
    Mathy Stanislaus, a former Obama EPA Assistant 
Administrator, said, ``Ms. Bodine understands both the internal 
side of the Agency and the proper balance of enforcement and 
would be a `standup person.' ''
    Ben Grumbles, a former George W. Bush Assistant 
Administrator and currently the Maryland Secretary of the 
Environment, said, ``She is tough and fair and committed to 
public service.''
    Elliott Laws, a former Clinton Assistant Administrator, 
said, ``Bringing in someone with her knowledge of the Agency 
and the issues facing it can only be a positive.''
    John Cruden, a former Obama Justice Department Assistant 
Attorney General for the Environment and Natural Resources 
Division, said, ``Susan is dedicated to the rule of law, a 
lawyer with great integrity, and she understands the critical 
importance of effective and timely enforcement.''
    I will now turn to Ranking Member Carper for his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    I want to start off by welcoming each of our four witnesses 
to today's hearing. I want to welcome your families as well, 
your spouses, sons and daughters, mothers, and any other 
friends and family that might be in the room.
    Several of our witnesses, Mr. Chairman, have talked about 
their core values and where they came from. They actually 
remind me a lot of ours. So, Ms. Irene, thank you for raising 
this kid and sending him our way.
    Thank each of you for your past public service and for your 
continued willingness to serve in these new capacities. For 
Kristine, it is not a new capacity, but to continue to serve. 
The jobs to which you have been nominated are very important to 
the health and safety of the American people.
    Mr. Chairman, as we have discussed, I am concerned that we 
do not have parity in the Nuclear Regulatory Commission 
nominees before us today. It is critical for the Commission to 
have consistent leadership from both political parties, 
especially as the industry faces a challenging future.
    I hope we can find a path, as we discussed, to ensure that 
the White House re-nominates Commissioner Jeff Baran and that 
the Committee pairs consideration of his nomination with some 
or all of the NRC nominees before us.
    Having said that, Mr. Chairman, the minority members of 
this Committee remain deeply disappointed, not with these 
witnesses or their families, but disappointed that the 
Committee has not received complete written responses from 
Administrator Pruitt to 11 oversight letters that Democratic 
members have sent the EPA this year.
    In fact, we recently learned that the White House has 
instructed Federal agencies not to respond at all to oversight 
requests from Senators who are not Chairmen. Such a directive 
harms both parties and takes us further from the truth.
    You do not have to take my word for it. Our colleague, 
Senate Judiciary Committee Chairman Chuck Grassley, sent a 
letter to President Trump just this past Friday admonishing the 
directive, noting, ``It harms not just the members who happen 
to be in the minority party at the moment, but also members in 
the majority party who are not currently Chairmen. It obstructs 
what ought to be the natural flow of information between 
agencies and the committees, which frustrates the 
constitutional function of legislating.''
    I am sure that my colleagues on both sides of this dais can 
agree that preventing Senators from performing their oversight 
responsibilities is simply unacceptable. In fact, this 
Committee has a tradition of ensuring that oversight requests 
receive responses as part of the confirmation process. I would 
like to share two short examples with you this morning.
    First, in 2013 Republicans insisted on responses to five 
requests as part of former Administrator Gina McCarthy's 
confirmation process. The Republican minority sought 
information on the Agency's compliance with the Freedom of 
Information Act, the availability of outside scientific 
research, the use of economic analysis, and lawsuit 
settlements.
    Republican members of EPW boycotted the first business 
meeting on Administrator McCarthy's nomination because they 
believed that the EPA had not been responsive to their 
requests. We may have another poster here. On that day, Mr. 
Chairman, you noted, ``The new nominee to be EPA Administrator 
has been extremely unresponsive with the information we 
requested.'' You went on to add, ``We're simply requesting that 
Ms. McCarthy and this Administration honor its commitment to 
transparency--that's what they promised.''
    In order to help obtain this information, at that time, I 
personally called the EPA and implored the Agency to respond to 
Senator Vitter and to the Republican members of this Committee. 
Ultimately, EPA did so.
    By the time the McCarthy nomination reached the Senate 
floor, EPA had sent at least five letters and provided more 
than 1,300 pages of documents and data. In the end, after 136 
days, Gina McCarthy was confirmed without a filibuster.
    Second, in 2009 Republican requests for information and 
economic analysis delayed Senate floor consideration of Bob 
Perciasepe's nomination to be Deputy EPA Administrator for 
almost 6 months. Last Congress, I am told that Republicans sent 
at least 156 oversight letters to EPA's Air Office alone and 
that all of them received responses.
    We have another chart that refers to EPA's 2015 responses. 
Additionally, in calendar year 2015, EPA received 884 letters 
from lawmakers seeking a response from the Agency. That same 
year, EPA received 60 document requests from Congress and one 
subpoena. The Agency also made EPA officials available to 
testify at 40 hearings.
    In 2015 alone with all of those incoming requests, EPA, 
under Gina McCarthy's leadership, sent 276,510 pages of 
documents to Congress. One more time, that is 276,510 pages.
    Colleagues, while our asks may not be welcomed by this 
Administration, I do not believe they are unreasonable, nor are 
they unprecedented.
    Oversight should not be a partisan issue. As Senator Inhofe 
and then-Chairman Inhofe noted in 2015, lack of timely and 
complete responses from agencies ``frustrate[s] Congress' 
ability to fulfill its constitutional duty to perform oversight 
of the executive branch.'' Mr. Chairman, I would say you were 
right then, and you are right today.
    Absent a heartfelt commitment by EPA to provide complete 
and timely responses to our current information requests, I 
will find it very difficult to support moving forward with the 
consideration of any EPA nominees.
    I do not make such a statement lightly, I make it with no 
sense of joy, but the nominations we are discussing today are 
important ones. They deserve our attention, just as our 
inquiries from the minority side deserve the attention of this 
Administration.
    Let me close by saying, the EPA's Office of Enforcement and 
Compliance Assurance is an indispensable ``cop on the beat,'' 
safeguarding the public's health and our country's environment. 
The office's actions drive reductions in toxic air pollution as 
well as the clean up of our land and our waterways. Last year, 
I am told EPA's enforcement work required companies to invest 
$13.7 billion in such actions.
    Turning to the NRC, following the lead of former Committee 
Chairman Jim Inhofe, Mr. Chairman, you and I have worked to 
strengthen the ``culture of safety'' within the U.S. nuclear 
energy industry for years.
    In part due to our collective efforts, the NRC leadership, 
and the Commission's dedicated staff, the NRC continues to be 
the world's gold standard for nuclear regulatory agencies. 
However, that does not mean we can become complacent when it 
comes to nuclear safety and our NRC oversight responsibilities, 
a perspective that I am certain is shared by every member of 
this Committee.
    In closing, I look forward to hearing how each of the 
nominees before us today will fulfill the responsibilities of 
the positions to which they are nominated. I hope they will 
share with the Committee their commitment to ensure that these 
agencies remain vigilant and devoted to the protection of all 
Americans and that you will be responsive to the legitimate 
questions we may ask of you from time to time.
    Thank you all for joining us today.
    [The prepared statement of Senator Carper follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much, Senator Carper.
    As you and I have discussed, I believe the Administration 
should and has a responsibility to answer members' questions. 
The Obama administration, I believe, went out of its way to 
avoid answering my specific oversight requests, responses that 
I never received, and I found it very disturbing.
    With respect to the Committee's oversight function, I 
believe it is critically important. I agree the executive 
branch agencies must be required to respond to the Committee's 
reasonable oversight requests.
    I understand that so far the EPA, this is the Trump 
Administration, so far has received 416 letters and has 
answered 386 to date. That is only since January 20, 2017. That 
is what I understand, and we will get the specific breakdown.
    As Chairman, I am going to work to ensure that the 
executive branch agencies under the current Administration work 
diligently and expeditiously to respond to the Committee's 
reasonable oversight requests in compliance with all laws, 
rules, policies, precedents, and practices.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    Let me just say that I appreciate the fact that I can say 
some things about two of my favorite people, whom I have worked 
with for a long period of time. I have to say this, by 
comparison with the responsive attitude they have always had, 
some of the other people did not look so good in the past.
    Yet, we have watched people like Pruitt, for example, 
having gone through this thing and not only being grilled and 
asked questions to an unreasonable extent, but when it came 
time for his questions on the record, he had to endure 1,600 
questions. That is unheard of. You guys are not going to have 
to do this. That would not be fair at all.
    Let me say this. I have worked with both Annie Caputo and 
Susan Bodine for many, many years. I have noticed, Annie, you 
have your husband, AJ, with you, and your son, Owen. I see that 
cute little girl; hold your hand up. That is Abbey. I remember 
when Abbey was born. That is how long I have known these 
people.
    Annie joined my EPW staff in 2007. Because her experience 
and expertise in the nuclear area are so well known, she has 
been called upon by members of the Democratic Party as well as 
the Republican Party. Her expertise was valuable to me in the 
aftermath of the nuclear accident at Fukushima and in my work 
to ensure the NRC issued timely decisions on new nuclear plant 
licenses. Most recently, she has been central in developing the 
bipartisan Nuclear Innovation Act.
    Similarly, Susan Bodine has been so valuable to me. As a 
staffer, she was the general counsel for our Committee for the 
last few years. Prior to that, she had experience and tenure in 
the EPA during the George W. Bush administration. She was 
critical to me and my staff when we worked on the famous Tar 
Creek Superfund site in northeastern Oklahoma. I think, at the 
time, that was the most devastating Superfund site in America, 
and we waded through that.
    In the last Congress, Susan was a large part of the team 
that put together the FAST Act, the Water Infrastructure Act 
and the Chemical bill. In fact, we had a meeting at 12:15 p.m. 
every Wednesday with the leader of the Senate, Mitch McConnell, 
and the Chairmen of the committees. When my turn came, I would 
say, ``Now a report on the Committee that actually does 
things,'' and that is this Committee. That is true. We did.
    Susan will be an asset to the Agency where she previously 
worked. She knows the laws that govern the EPA.
    I thank you again for allowing me to speak on behalf of 
these two individuals that have served the Committee and me so 
faithfully over the years.
    Senator Barrasso. Thank you very much, Senator Inhofe.
    We would now like to welcome, congratulate, and hear from 
our nominees. I want to remind each of you that your full 
written testimony will be made a part of the record. I look 
forward to hearing the testimony. We ask that you keep your 
comments to 5 minutes.
    We will hear first from Ms. Svinicki. Please proceed.

STATEMENT OF KRISTINE SVINICKI, NOMINATED TO BE CHAIRMAN, U.S. 
         NUCLEAR REGULATORY COMMISSION (REAPPOINTMENT)

    Ms. Svinicki. Thank you, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee.
    I am grateful to President Trump for nominating me to a 
third term of service on the Commission and was humbled by his 
request of me earlier this year to assume the role of the 
Commission's Chairman.
    If the Senate acts favorably on my nomination, I would, 
once again, be privileged to continue this work, alongside my 
currently serving colleagues, Commissioners Baran and Burns.
    I also congratulate my fellow nominees to the Commission 
and wish them well in this confirmation process. I know them 
both to be individuals of great capacity and commitment and am 
confident that, if confirmed, they will apply themselves in 
full measure to supporting the NRC's important mission.
    According to those keeping records at the NRC, this is my 
eighteenth appearance as a witness before this Committee; my 
third as a nominee. In light of that, the record of my views on 
relevant matters is well established.
    With the exception of Senators new to the Committee, it is 
likely that the votes I have taken and the positions I have 
established over this span of years provide adequate terrain 
for both agreement and disagreement with elements of my record.
    I state with sincerity that my appearances before your 
Committee and the exchange of sometimes pointed differences on 
issues have shaped me as a Commissioner. The members of this 
Committee have routinely challenged me to examine all 
dimensions of the issues, to apply the highest rigor to my 
consideration of all matters, and to continue to stay open to 
new information and new insights.
    These exchanges reinforce the importance of never becoming 
complacent in my work, of maintaining an inquiring attitude, 
and being mindful always of the full weight of the solemn 
responsibilities entrusted to me. If you honor me with your 
approval of my nomination, I commit myself to continuing to 
approach my duties in this way.
    Of course, any contributions I have made to the NRC during 
my time there would not have been achieved without the hard 
work and commitment of the women and men of the NRC and their 
sustained efforts to advance the NRC's mission under the law, 
that of ensuring adequate protection of public health and 
safety and promoting the common defense and security.
    Nearly 10 years into this journey, their commitment to this 
shared goal is what inspires and motivates me each day. Once 
again, I would like to take this opportunity to convey my 
personal gratitude to each of them for their contributions to 
whatever achievements I have had along the way and for their 
engagements with me over the years, which have helped to shape 
and form my views on so many important matters before the 
Agency.
    Chairman Barrasso, Senator Carper, and members of the 
Committee, thank you. I appreciate the opportunity to appear 
today and look forward to the Committee's questions.
    [The prepared statement of Ms. Svinicki follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you so much for your comments.
    Ms. Caputo.

STATEMENT OF ANNIE CAPUTO, NOMINATED TO BE A MEMBER OF THE U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Ms. Caputo. Thank you, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee.
    I have been very thankful for the opportunity to work for 
Chairman Barrasso this year, continuing my service to the 
members of the EPW Committee under his leadership.
    I am also grateful to President Trump for nominating me to 
serve on the Nuclear Regulatory Commission. Public service is a 
privilege. If the Senate confirms my nomination, I will be 
honored to serve and very humbled to serve with such esteemed 
fellow colleagues as Chairman Svinicki, Commissioner Baran, 
Commissioner Burns and my fellow nominee, David Wright.
    Before I begin, I would like to acknowledge my family. I 
want to thank AJ, my husband of 19 years, for his constant 
support of my public service, and our children, Owen and 
Abigail, who are our greatest blessings and who assured me they 
would be on their best behavior today.
    In preparing for today, I have spent time reflecting on 
what it would mean to take on the responsibility of the 
position of Commissioner and how key experiences in my life 
have prepared me for such a role.
    What I realized is several experiences closely echo the 
NRC's mission, values, and principles of good regulation.
    First, my mother not only taught me right from wrong, but 
to distinguish between what is right and what is popular. This 
is a lesson that would guide me in the position to which I have 
been nominated.
    It is a lesson I believe is well articulated in the NRC's 
Principle of Independence which states, ``All available facts 
and opinions must be sought openly from licensees and other 
interested members of the public. The many and possibly 
conflicting public interests involved must be considered. Final 
decisions must be based on objective, unbiased assessments of 
all information.''
    Second, my brief service as a volunteer firefighter and 
emergency medical technician for the Snowmass Wildcat Fire 
Department showed me the importance of dedication to public 
health and safety, professionalism, teamwork, and the 
satisfaction of serving the community. It was here that the 
seed of public service was planted and took root. These are 
values that guide me to this day and are in keeping with the 
NRC values of commitment, respect, cooperation, and service.
    Third, my first job after graduating with my nuclear 
engineering degree was with Commonwealth Edison in Chicago. At 
the time, half of their nuclear plants were on the NRC's 
``watch list'' due to safety concerns.
    A man named Oliver Kingsley took on the role of President 
and transformed the organization's performance based on the 
principle that safety and operations are inextricably linked: 
that operations excellence depends on a dedication to safety.
    If a nuclear plant is not maintained with disciplined focus 
on safety, it will not run well. Safety is first. That is what 
I learned from Oliver Kingsley, and that is the mission of the 
Nuclear Regulatory Commission.
    I have been privileged to serve in both the House and 
Senate for 12 years, the majority of my career. In these roles, 
I have been continually challenged by Members to learn as much 
as I can. In doing so, I have seen the impressive expertise and 
professionalism of the NRC staff in action. I have no doubt the 
staff's caliber and commitment is why the NRC is considered the 
gold standard for nuclear safety the world over. I have much to 
learn, and they have much to teach me if I am confirmed.
    Last, members have directed me to seek out the best policy 
and to work with bipartisanship to accomplish their goals. 
These experiences have developed my ability to work collegially 
to find agreement among different views and to craft solutions 
by working together.
    By sharing these experiences with you, I hope to provide 
you with insight into my character and how my values would 
guide my conduct as a Commissioner, if confirmed. It is 
humbling to be considered for such a serious responsibility. I 
would strive to execute that responsibility with integrity and 
professionalism, in a manner that earns the public's trust, and 
in keeping with NRC's mission, principles, and values.
    I appreciate the opportunity to appear today and look 
forward to your questions.
    [The prepared statement of Ms. Caputo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you so much for your comments.
    Now I would like to turn to Mr. Wright. You are next.

STATEMENT OF DAVID WRIGHT, NOMINATED TO BE A MEMBER OF THE U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Mr. Wright. Thank you, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee for the opportunity to 
appear before you today.
    I would be remiss if I did not also thank Senator Lindsey 
Graham for his kind introduction earlier.
    I am humbled and honored to appear before you today as the 
nominee of the President to serve as a Commissioner on the 
Nuclear Regulatory Commission. It is an honor and privilege, 
not just for me personally, but also for my family, my church, 
my community, my State, and all of the people I have worked and 
served with over the years.
    Mr. Chairman and members of the Committee, if I may, I 
would like to recognize my mother, Irene Wright, who is sitting 
behind me today. She gave birth to me on her 24th birthday, and 
next month, we will both celebrate the 62nd anniversary of her 
24th birthday. I will let you all do the math. She is truly one 
of God's angels living on this earth, and I get to call her 
Mom.
    June is a busy time of year for the Wright family. My 
oldest daughter, Kimberly, is wrapping up her year as a 
kindergarten teacher. My second daughter, Courtney, works for 
the State of South Carolina. She and her husband, Ray, are 
raising three wonderful children, my grandchildren.
    Senator Boozman, my oldest son, Austin, is a nursing home 
administrator working in Cabot, Arkansas. I believe I shared 
that with you. My youngest son, Andrew, a rising college 
sophomore, is in his last week as a Young Life Summer Camp 
counselor at Sharp Top Cove in Jasper, Georgia. Although the 
rest of my family is not able to be here in person today, I can 
feel each of them and their support.
    Mr. Chairman and members of the Committee, if confirmed, I 
look forward to working closely with my fellow nominees, 
Chairman Kristine Svinicki and Annie Caputo, as well as 
Commissioners Steve Burns and Jeff Baran, in carrying out the 
NRC's mission of protecting public health and safety, promoting 
the common defense and security, and protecting the 
environment.
    I pledge to work closely with each member of the Commission 
in the spirit of collegiality. I believe we will work very well 
together. I look forward to developing a good working 
relationship with this Committee as you also fulfill your 
important oversight role.
    I have a broad and varied professional background in 
private business and in public life. Having been self-employed 
the majority of my adult life, I have also served in various 
elected positions in local and State government.
    Although we are all shaped by the entirety of the events 
and experiences in our lives, I am confident I find myself 
before you today because of my service on the South Carolina 
Public Service Commission. Since first elected in 2004, I 
served as a South Carolina Commissioner for nearly 10 years, 
where I also had the privilege to serve as Chairman.
    During my tenure as a Commissioner, in 2008 I was diagnosed 
with stage 3 colon cancer. I had surgery and went through 
months of chemotherapy, but I did not miss very much time at 
the commission. It was during that time that I made the 
decision to do things I had not previously considered and to 
challenge myself in ways I might not have had it not been for 
that trial in my life.
    As a Commissioner, I was already active within the National 
Association of Regulatory Utility Commissioners, NARUC, where I 
was serving as Chairman of the Subcommittee on Nuclear Issues 
and Nuclear Waste for 3 years. In June 2008 I was elected to 
serve as President of the 11-State Southeastern Association of 
Regulatory Utility Commissioners.
    In 2011 following a year serving as First Vice President, I 
was elected by my fellow commissioners to serve as the 
President of NARUC, the highest professional honor of my life 
until today.
    During my years as a Commissioner, including my service in 
leadership roles at the regional and national levels, I have 
been successful in building bridges and building consensus on 
issues, and in the creation and adoption of policy.
    If given the honor to serve the country in this position, I 
will approach my service as a Commissioner at the NRC no 
differently. I believe my regulatory background at the State 
level, along with my experiences in business and elected 
office, provide a sound foundation for considering matters that 
will come before me as a member of the Commission.
    If confirmed, I will approach my work as a Commissioner 
with an open mind and in a collegial manner. I will listen to 
all parties and al points of view, seek clarification where 
needed, endeavor to establish a complete record, base my 
decision on the facts before me, and work to build consensus 
among the Commissioners whenever possible.
    Chairman Barrasso, Ranking Member Carper, and members of 
the Committee, thank you for the opportunity to appear before 
you today.
    [The prepared statement of Mr. Wright follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you so very much for your comments.
    Ms. Bodine.

     STATEMENT OF SUSAN BODINE, NOMINATED TO BE ASSISTANT 
ADMINISTRATOR, OFFICE OF ENFORCEMENT AND COMPLIANCE ASSURANCE, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Bodine. Chairman Barrasso, Ranking Member Carper, and 
members of the Committee, thank you for the privilege of 
appearing before you today as the nominee for the position of 
Assistant Administrator for EPA's Office of Enforcement and 
Compliance Assurance.
    I am honored that President Trump, Administrator Pruitt, 
and this Committee are considering me for this position.
    I would also like to thank my family. They are not here 
today because they are all at work. They did come 12 years ago 
which was the last time I actually had a confirmation hearing 
before this Committee. My sons, at that time, were 11 and 14. 
They are now 23 and 26. Thankfully, they are gainfully 
employed.
    I would also like to thank my many current and former 
colleagues for their support and friendship.
    I have worked on environmental issues for my entire 
professional career, as a practicing attorney, as a member of 
the professional staff of the Subcommittee on Water Resources 
and Environment of the House Committee on Transportation and 
Infrastructure, as a former EPA Assistant Administrator, and as 
a member of the professional staff of this Committee.
    If confirmed as the Assistant Administrator for OECA, I 
would bring with me an extensive background in the 
environmental laws that OECA enforces. I strongly support those 
laws and the goals of protecting public health and the 
environment.
    I also would bring my past experience in managing an EPA 
headquarters office and my deep respect for the career staff 
who do the day to day work of implementing our environmental 
laws and carrying out the responsibilities that Congress has 
given EPA.
    I appreciate that our laws are built around the framework 
of cooperative federalism. Under cooperative federalism, States 
and the Federal Government both have important and 
complementary roles in implementing our laws.
    I also fully appreciate that we cannot protect public 
health and the environment unless the regulated community knows 
what they are supposed to do. Enforcement is a critical tool to 
achieve compliance. Compliance by everyone also creates a level 
playing field for the regulated community. By enforcing 
environmental laws, OECA helps to create that level playing 
field.
    Of course, to comply with the law, the regulated community 
needs to understand what is expected of them. Sometimes our 
statutes and regulations are less than clear. OECA plays an 
important role in making sure that there is clarity and 
consistency in how our environmental laws are interpreted, and 
providing assistance when the laws are less than clear. If 
confirmed, I look forward to working with the EPA program 
offices and States to provide that clarity and consistency.
    Those who have worked with me know that I have a 
collaborative and inclusive approach to tackling complex 
environmental issues. For the Assistant Administrator of OECA, 
this means collaboration and coordination with States that are 
authorized to carry out Federal laws. It also means 
collaboration and coordination with the EPA program offices 
that write the regulations and implement the statutes that 
Congress writes.
    I also understand the need to communicate. That means not 
just talking but also listening. Communication with the 
environmental professional staff at EPA is an important 
managerial responsibility. Communication with State agencies is 
a critical component of cooperative federalism. Communication 
with the regulated community and environmental groups provides 
important feedback. Finally, communication with the public and 
Congress provides support for the Agency's mission.
    If confirmed by the Senate, I would embrace the 
responsibility for assuring compliance with environmental laws. 
I know we all share the goal of protecting public health and 
the environment. I know we share the goal of making 
environmental regulations clear and understandable.
    I am very excited about the opportunity to work with 
Administrator Pruitt as a member of his team to achieve those 
goals.
    In closing, thank you for this opportunity. I look forward 
to any questions you or your colleagues may have.
    [The prepared statement of Ms. Bodine follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. I want to thank all of the nominees for 
your testimony.
    Throughout this hearing and with questions for the record, 
the Committee members will have an opportunity to learn more 
about your commitment to public service of our great Nation. I 
would ask throughout this hearing that you please respond to 
the questions today and those for the record.
    With that said, I have the following questions to ask that 
we ask all nominees on behalf of the Committee. I will ask each 
of you to respond individually.
    Do you agree, if confirmed, to appear before this Committee 
or designated members of this Committee and other appropriate 
committees of the Congress and provide information subject to 
appropriate and necessary security protections with respect to 
your responsibilities?
    Ms. Svinicki. Yes, I do.
    Ms. Caputo. Yes, I do.
    Mr. Wright. Yes.
    Ms. Bodine. Yes.
    Senator Barrasso. Do you agree to ensure that testimony, 
briefings, documents in electronic and other forms of 
communication of information are provided to this Committee and 
its staff and other appropriate committees in a timely manner?
    Ms. Svinicki. Yes.
    Ms. Caputo. Yes.
    Mr. Wright. Yes.
    Ms. Bodine. Yes.
    Senator Barrasso. Do you know of any matters which you may 
or may not have disclosed that might place you in any conflict 
of interest if you are confirmed?
    Ms. Svinicki. No, I do not.
    Ms. Caputo. I do not.
    Mr. Wright. No, sir.
    Ms. Bodine. No.
    Senator Barrasso. I will not ask any questions because at 
this time I am going to reserve the balance of my time to be 
used during the hearing.
    With that, I will pass to Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    For the benefit of some of you here, we have a bit of a 
problem in that two of the other members seated to my right 
have the same problem I do. We are currently meeting at the 
same time with the Senate Armed Services Committee. In fact, we 
have Secretary Mattis as a witness, so we will have to go back 
and forth.
    First of all, let me mention that I have been engaged in 
oversight for the NRC now for a number of years, since 1996. In 
1996 I was made the Chairman of the subcommittee. At that time, 
we had gone 4 years without any kind of an oversight. This is 
something you cannot do with any bureaucracy. You have to have 
oversight. We immediately started doing that and started 
anticipating and expecting response on a regular basis.
    I will start with you, Ms. Caputo. If you are confirmed, 
will you commit to continue these reports and work with the 
Committee on any revisions to improve their usefulness and also 
to respond to an oversight hearing on a regular basis?
    Ms. Caputo. Yes, I will.
    Senator Inhofe. Ms. Bodine, you mentioned OECA several 
times. I have been a bit disturbed by some of the measures that 
I would refer to as performance measures. For example, 
targeting a specific number of enforcement actions sounds like 
a quota to me. Does it sound that way to you also?
    Ms. Bodine. That is an issue I would like to look into if I 
am confirmed as the Assistant Administrator. Enforcement is a 
tool. It is a critical tool, but it is not an end to itself. 
Our goal, of course, is compliance.
    I want to sit down with EPA staff and look over the 
performance measures and make sure OECA employees are getting 
credit for their work, whether or not they take a formal 
enforcement action, because we all want compliance with the 
law.
    Senator Inhofe. You would look into that anyway in that 
capacity if you are confirmed?
    Ms. Bodine. Yes.
    Senator Inhofe. That is what we expect.
    Most of our Superfund sites are cleaned up by private 
parties. We have had problems in the past with that. Can you 
discuss how OECA helps achieve getting these things done 
through the private sector?
    Ms. Bodine. Yes. The Superfund statute is a very forceful 
law. It does make sure that parties responsible for 
contamination can be held liable. OECA is the office that holds 
their feet to the fire and brings action against them so that 
private parties do clean up. They have been tremendously 
successful.
    Senator Carper, you gave us the statistics from the 
commitments of clean up work, over $1 billion from last year. 
In addition, OECA collects funds and puts it into what we call 
special accounts so that private parties can pay money instead 
of doing the work.
    Right now, we actually $3.5 billion in special accounts 
that is there, available, not subject to appropriation and is 
available to carry out clean up work at the sites in the cases 
where OECA has brought the enforcement action.
    Senator Inhofe. Thank you, Ms. Bodine.
    Last, Administrator Pruitt wants the EPA to embrace 
cooperative federalism. How does that apply to enforcement?
    Ms. Bodine. In the enforcement context, in my view, that 
means respecting State interpretations of their own law. It 
means dividing the work between States and not taking 
duplicative enforcement actions. It means coordinating with 
States so we let States know when, for example, OECA 
enforcement officers are coming into their States to take 
action.
    I would like to point out that just yesterday the 
Environmental Council of the States, the organization that 
represents the State Environmental Commissioners, put out a 
statement entitled, ``Cooperative Federalism 2.0,'' which I 
guess is a white paper.
    There they speak exactly to this issue and talk about how a 
State should be the primary enforcement authority for programs 
delegated to the States and have the ability to access Federal 
enforcement authorities when needed or appropriate.
    Senator Inhofe. Ms. Svinicki, I have no questions for you 
because you have been around a long time. I have always agreed 
with what you have done. I am just glad you are willing to 
continue doing this.
    Mr. Wright, you are fairly new to me, but you have a very 
interesting background. I think it is the kind of background 
that requires cooperation. It is something you cannot just have 
out there and command because you have to get along with the 
other side. I think that is a great asset that you have.
    I will certainly look forward to working with you and your 
talents and building consensus. I think you are going to be of 
great value. Is there any statement you want to make about how 
consensus has served you well?
    Mr. Wright. Thank you, Senator.
    I do not believe I would have risen to the level that I did 
within the National Association of Regulatory Utility 
Commissioners had I not been able to work across beliefs, party 
lines, you name it, because it is a consensus organization. 
They do not do anything except by resolution and through the 
committee process.
    You have to be able to work with people. That is a skill 
that is learned over time. I look forward to using that because 
I believe I have a certain skill set that will benefit the 
Commission.
    Senator Inhofe. That is great. I look forward to working 
with you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Carper.
    Senator Carper. I am going to yield to Senator Gillibrand. 
I think several of us have other hearings.
    Senator Gillibrand. Thank you, Ranking Member.
    I am concerned that the NRC's decommissioning rule will 
potentially set up a process by which the emergency planning 
zone and associated requirements for nuclear plants will be 
automatically reduced with a plant's shutdown operations while 
there is still fuel remaining in the spent fuel pool.
    There is currently no maximum amount of time that fuel can 
remain in a spent fuel pool. A major driver for shrinking the 
emergency planning zone during decommissioning is the cost to 
the licensee.
    My first question to the panel is, is it appropriate to 
factor the cost to the licensee into the decision on the size 
and scope of emergency planning activities; why or why not?
    Ms. Svinicki. Thank you for the question, Senator.
    As you know, the NRC has a rulemaking underway on this 
topic right now. It is my understanding that the staff analysis 
has not developed the draft rule yet, but they have published 
something called a regulatory basis.
    They are looking at sizing the emergency planning zone to 
the extent of the risk or hazard. I do not believe it is an 
economic analysis. If I am wrong about that, I can correct that 
for the record.
    Senator Gillibrand. That would be great largely because if 
you have a pool of unspent fuel sitting 50 miles from New York 
City, it becomes a national security risk that is real. It also 
is an environmental hazard.
    Does anyone else have further thoughts on that question?
    Ms. Caputo. If confirmed, this is certainly an issue that I 
would like to look into and focus on and certainly be briefed 
by the staff.
    Senator Gillibrand. I would be very grateful.
    Mr. Wright. I have nothing to add to what Annie just told 
you.
    Senator Gillibrand. Susan.
    Ms. Bodine. Not on that issue, nothing.
    Senator Gillibrand. Thank you.
    If anyone has a thought, should there be limits placed on 
the amount of time that spent fuel can remain in a spent fuel 
pool, particularly if you do have an environmental or national 
security issue?
    Ms. Svinicki. Senator, again, thank you for that question.
    NRC looks closely at the hazard posed in making these 
safety determinations, although it has been NRC's established 
position that spent fuel pool storage is safe and equally safe 
to the dry cask storage, the other alternative.
    Senator Gillibrand. I think of safe as a measure of what. 
When you are looking at national security concerns and 
location, I think you have to maybe augment that definition of 
what is safe.
    My second question is for Susan Bodine. It has been 
reported that during your time as partner at the law firm of 
Barnes and Thornburg, you represented the plastics company 
Saint-Gobain.
    As you may know, Saint-Gobain was responsible for polluting 
the drinking water in Hoosick Falls, New York, with PFOA. The 
Saint-Gobain facility in Hoosick Falls has been proposed for 
listing as a Federal Superfund site. That proposed listing is 
still pending at the EPA. Could you please describe the work 
you did on behalf of Saint-Gobain?
    Ms. Bodine. Thank you, Senator Gillibrand.
    First, let me say that I would have no problem bringing an 
enforcement action against any company whatsoever, whether I 
worked for them in the past or not.
    Second, I have never worked for the performance plastics 
company that you are referring to. I did work with a company 
called Saint-Gobain Containers, headquartered in Muncie, 
Indiana. They make glass containers. For example, they have a 
facility in Milford, Massachusetts, that makes 1.2 million beer 
bottles a day.
    Their issue is that they wanted to increase the amount of 
glass that was recycled because if they use recycled glass 
instead of raw material, they can reduce their energy cost and 
their emissions. My entire representation for them was 
associated with encouraging recycling.
    Senator Gillibrand. In your written testimony, you bring up 
the term ``cooperative federalism'' several times. How do you 
envision the EPA role versus the role of States in enforcing 
Federal environmental statutes?
    Ms. Bodine. As I mentioned earlier, many of our 
environmental statutes authorize or delegate to States the 
responsibility for carrying out those laws. I think we need to 
have close coordination with the authorized States to the 
delegated States so that we are not duplicating action and are 
both conserving our resources to the greatest extent.
    That does not say that there is no role for OECA at all. Of 
course there are some matters that EPA and the Enforcement 
Office at EPA are uniquely qualified to carry out whether it is 
going after sector initiatives or companies with facilities in 
multiple States. It is more efficient to take an action that 
involves multiple facilities and criminal enforcement as well. 
EPA has unique capabilities in that area.
    Senator Gillibrand. Finally, the Trump budget proposes to 
cut the funding of the Office of Enforcement and Compliance 
Assurance by 24 percent. What impact do you expect that will 
have on the ability of the EPA to hold polluters accountable?
    Ms. Bodine. Again, I expect to work with the enforcement 
staff and with States to go after the highest priority and the 
most egregious polluters. States are going to implement the day 
to day enforcement, but EPA is going to maintain an enforcement 
presence, certainly create the deterrent effect, and take these 
high profile cases.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much.
    Before turning to Senator Ernst, I would like to introduce 
for the record a letter of support for Ms. Bodine's nomination 
from Stanley Meiburg, the EPA's Acting Deputy Administrator in 
the Obama administration, supporting her nomination with the 
quote, ``Ms. Bodine's presence as a confirmed nominee will 
strengthen the voice of enforcement in that Agency.''
    Without objection, that will be admitted.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, panelists and witnesses, for being here today.
    Ms. Bodine, I have some questions for you related to how 
you will manage and conduct the Office of Enforcement and 
Compliance Assurance at EPA because I think this will be a 
crucial part of EPA's effort to win back the trust of many 
Americans.
    As you know, regulations and their standards are not always 
clear. We can see that through WOTUS and so many other examples 
that are not always clear on what they require.
    Do you believe it is part of EPA's job to make sure 
regulated parties, like farmers and manufacturers who want to 
comply, know how they can comply?
    Ms. Bodine. Yes, Senator, I very much believe that is a 
role that EPA plays. That means that the Enforcement Office 
needs to work with the States and the EPA program offices so 
that we all have a consistent understanding of what the law 
requires and that we communicate that to the farmers, industry, 
and municipalities.
    Senator Ernst. Wonderful. Consistent understanding and 
communication, I love that. I think that is very, very 
important.
    To briefly follow up, what do you believe should be the 
primary goal of enforcement in addressing so many of our 
compliance problems? Do you believe it is EPA's role, not just 
to levy fines against people, but to also go in and assist them 
with actual compliance?
    Ms. Bodine. The goal is compliance. The goal is not 
enforcement. Enforcement is not an end to itself; it is an 
important tool to make sure that our environmental laws are 
complied with. So, yes, compliance assistance is another tool, 
and I think also a very important tool.
    Senator Ernst. Very good because I believe if we are to 
solve any of our issues, we have to get to the root cause of 
the problem, that is assistance with compliance to make sure we 
all fall within that compliance and move toward the goal of 
those regulations.
    Thank you very much. I yield back my time.
    Senator Barrasso. Thank you very much, Senator.
    Senator Carper.
    Senator Carper. Senator Whitehouse was here earlier. He is 
a busy fellow this morning, so I am going to yield to him for 
whatever questions he would like to ask.
    Senator Whitehouse. I thank the Ranking Member, and I 
welcome all the witnesses. To the candidates who are here for 
the Nuclear Regulatory Commission, we have had our discussion 
already. I will not re-litigate any of those issues here.
    We stand extremely ready to work with you to speed up the 
processes of the Nuclear Regulatory Commission so that next 
generation nuclear facilities can be appropriately brought on 
line here with, to me, the most particular and ultimate goal to 
find technologies that will allow us to turn our existing 
nuclear waste stockpile--which has to be a multi-trillion 
dollar liability on the books of the United States if properly 
accounted for--into an asset by allowing it to be used to 
create power, to create electrons.
    In the meantime, I look forward to working with you to try 
to find ways to enable our safely operating nuclear plants, to 
continue to safely operate rather than shut them down because 
they are not adequately compensated for the carbon-free nature 
of their power. We said that already. We can keep going.
    My concern mostly is with Ms. Bodine. I am sorry about the 
circumstance you find yourself in because I think that the 
Environmental Protection Agency has, in a nutshell, been 
captured by a corporate polluter raiding party and now is under 
the direction of agents of the big polluters that it was 
intended to regulate.
    The founding fathers' word for this would, I think, have 
been corruption. Teddy Roosevelt would probably have had far 
stronger words. The polluter raiding party, I am sorry to say, 
can bet on zero oversight from the EPW Committee majority which 
would not even require the incoming Administrator's disclosure 
of his conflicts of interest arising from his dark money 
political fund raising operation.
    Because dark money is a bizarre new phenomenon in our 
political world, this set of appointees was the first to raise 
this conflict of interest question. This Committee fell down on 
its duty to get the requisite disclosure to understand what 
those conflicts of interest might be.
    Therefore, I am very worried that the EPA will not do much 
enforcing of environmental laws during this Administration. As 
you know already, Ms. Bodine, Scott Pruitt's record on 
environmental enforcement is abysmal. He eliminated the 
Environmental Protection Unit in the Oklahoma Attorney 
General's Office, did not participate in the Oklahoma 
Environmental Crime Task Force which his predecessor led, could 
not list a single environmental enforcement achievement during 
his confirmation, and stopped reporting the enforcement that 
his predecessor had reported, including numbers of criminal 
investigations, Federal and State environmental prosecutions, 
felony convictions of individuals, jail time, fines, and other 
basic enforcement statistics.
    If you are doing a terrible job, I suppose the first thing 
you want to do is get rid of the reporting. Refusing to release 
those statistics recurred again. He would not report even to us 
during his confirmation, again, I think knowing perfectly well 
that the majority was not going to require any information from 
him.
    The Agency you will come in to lead has an impressive 
history of enforcing environmental statutes. Let me ask, first, 
if you will continue the process of reporting that has been the 
tradition of that part of EPA.
    Ms. Bodine. Yes, Senator, absolutely.
    Senator Whitehouse. You will not follow the Pruitt model of 
closing the reporting to cover up the fact that there is no 
enforcement left?
    Ms. Bodine. OECA has always issued its annual enforcement 
numbers. If confirmed, OECA will continue to release its annual 
enforcement numbers.
    Senator Whitehouse. If you are told by the Administrator to 
go light or to back off or to take it easy or to let it go, how 
will we know that is taking place, and how will we know that 
you did not say OK?
    Ms. Bodine. Senator, I cannot accept that premise.
    Senator Whitehouse. OK. Change it to the President. What if 
the President tells you that? We know he said to let Flynn go. 
Why wouldn't he say let some polluter go?
    Ms. Bodine. Enforcement has always been non-partisan and 
independent at EPA. If confirmed, I would make sure that 
continued to be true.
    Senator Whitehouse. One of the things people do when asked 
to do things that are inconsistent with their duties is to push 
back or resign. Would you be prepared to do that if the 
pressure from the Administrator was, in your view, inconsistent 
with the duties and obligations of the Agency?
    Ms. Bodine. Again, Senator, I cannot imagine that 
circumstance coming up, but, yes, I have my own integrity, but 
so does Administrator Pruitt. I am not at all concerned that 
the circumstance would ever arise.
    Senator Whitehouse. Wow, because that runs wildly contrary 
to his entire record.
    My time has expired.
    Senator Barrasso. Thank you very much.
    I would like to point out to the Committee that any 
questions relating to potential conflicts for Administrator 
Pruitt have been fully addressed by the Office of Government 
Ethics on January 17, 2017.
    Walter Schaub, who is the Director of the Office of 
Government Ethics, responded to a letter from the Ranking 
Member and other EPW Democrats regarding Scott Pruitt and 
potential conflicts of interest, ``If OGE, the Office of 
Government Ethics, has transmitted a certified financial 
disclosure report and an ethics agreement to the Senate, it 
means that OGE is satisfied that all financial conflicts of 
interest have been identified and resolved.''
    This follows Administrator Pruitt's OGE financial 
disclosure report and ethics agreement that was transmitted to 
this Committee on January 4, 2017. His letter states, ``We,'' 
the OGE, ``believe that this nominee is in compliance with 
applicable laws and regulations governing conflicts of 
interest.''
    I ask unanimous consent to enter these two letters into the 
record.
    Senator Whitehouse. I would object and ask unanimous 
consent also to enter into the record, along with it, the 
correspondence we have had with OGE about how the dark money 
operation was not actually considered by them and therefore, 
was never looked at and was not a part of that OGE response.
    Senator Barrasso. Without objection.
    Senator Whitehouse. Thank you. No objection then on my 
side.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    I just want to make a few comments based on my good friend 
Senator Whitehouse's comments. And he is my good friend, and we 
work on a lot of things together, but we all agree that we need 
clean water and clean air. Really important, whether you are 
from New Jersey or Alaska or Rhode Island.
    We also need an EPA that follows the law, that actually 
follows the law, reads statutes and follows the law. With all 
due respect to my colleagues on the other side of the aisle, 
there are many people in my State, Democrats and Republicans, 
that believe the last Administrator of the EPA didn't follow 
the law at all. So one of the refreshing things about 
Administrator Pruitt is that he is going to follow the law. The 
EPA has to follow the law.
    Would you agree with that, Ms. Bodine?
    Ms. Bodine. Yes, absolutely, Senator.
    Senator Sullivan. And I think, and you don't have to 
comment on this, but as a former AG who also sued the EPA, they 
didn't follow the law a lot, particularly during the last 4 
years. So I think it is a breath of fresh air that we have a 
new Administrator who actually wants to follow the law and work 
with States. If you are confirmed, will you commit to work with 
the States, States like Alaska or Rhode Island or New Jersey or 
Illinois, to work with us to clean up hazardous sites, to clean 
up pollution, other things that are the core mission of the 
EPA?
    Ms. Bodine. Yes, Senator, absolutely.
    Senator Sullivan. Let me go into a specific issue that 
relates to Alaska. There was a hearing here recently on 
contaminated lands that we have with Alaska Native Land Claims 
Settlement Act. This is millions of acres of lands that were 
transferred to Alaska Natives. We had a very powerful witness 
just a couple months ago, Ms. Lukin, who is an Alaska native, 
who talked about this kind of Catch-22 that Alaska native 
corporations are in with regard to CERCLA requirements and the 
clean up. They are being required to now clean up lands that 
were transferred to them by the Federal Government.
    You are very familiar with this issue; we have talked about 
it. Do you care to comment on that briefly?
    Ms. Bodine. Yes, Senator. Yes, I am familiar with that 
issue. Currently, EPA enforcement uses its enforcement 
discretion to not seek to compel the Alaska native villages to 
clean up the lands because, of course, the contamination was 
caused by the Federal Government.
    Senator Sullivan. Right.
    Ms. Bodine. But right now it is an enforcement discretion 
policy; it is not statute.
    Senator Sullivan. First of all, I think, Mr. Chairman, the 
Ranking Member, my colleagues on the other side of the aisle, I 
actually believe there is a bipartisan sense that we can 
hopefully fix this from a statutory perspective on this 
Committee and in the Senate.
    But as we work through that, can you commit to me to 
continue that kind of discretion on an issue that would 
essentially bankrupt these companies through no fault of their 
own?
    Ms. Bodine. Yes, sir.
    Senator Sullivan. And would you commit to work with the 
Committee to help us try to maybe get to a place where the 
Administration, and in a bipartisan way, this Committee can 
work to craft a statutory resolution?
    Ms. Bodine. Yes, sir.
    Senator Sullivan. Let me turn to another issue. In Chicken, 
Alaska, I believe you are familiar with what happened to my 
constituents during a raid conducted by the EPA: assault 
weapons, body armor, the whole nine yards. It was like the U.S. 
Marines invading a rural community in Alaska, EPA officials 
armed with weapons to look for clean water violations that they 
never found. Are you familiar with that?
    Ms. Bodine. Yes, I am.
    Senator Sullivan. Do you believe that EPA should have 
agents that are trained to be armed when we have Federal 
marshals or local, State, and Federal officials that can 
execute warrants or execute enforcement actions just as easily, 
better trained than EPA agents armed and coming in and scaring 
the heck out of law abiding Alaskans who haven't done anything 
wrong?
    Ms. Bodine. Senator Sullivan, if I am confirmed, I would 
like to review the guidance and policies for when EPA agents 
would be armed.
    Senator Sullivan. Thank you. I had a bill that would disarm 
the EPA. The first 20 years of its existence the EPA had no 
armed agents. I don't think they need them now. I think it is a 
waste of taxpayer money, and it encourages abuses like you saw 
in Chicken, Alaska. So I would like to work with you on that as 
well.
    By the way, I think you are highly qualified. I think you 
are going to make an outstanding addition to the EPA's 
leadership. I look forward to voting for your confirmation.
    Let me just ask a final question of our other witnesses. 
How can we assure that we continue the highest levels of safety 
with regard to our civilian nuclear energy capacity as we look 
to move forward and actually move forward on perhaps building 
new reactors that have the capacity to bring clean energy to 
our power generation for the United States?
    Open up to any of the panelists who are up for confirmation 
on the Nuclear Regulatory Commission.
    Ms. Svinicki. Thank you, Senator Sullivan. It has been my 
philosophy, in being a member of this Committee for nearly 10 
years, that our safety determinations need to be rooted in the 
facts, in analysis, need to have rigorous cost-benefit analyses 
behind them, and be developed in a transparent way with 
stakeholder and public involvement, and I think that leads to 
the most informed decisions.
    Senator Sullivan. Thank you.
    Ms. Caputo. I think that history and that track record sets 
the stage for future reviews. I think timeliness and efficiency 
is one aspect of that so there is predictability for companies 
who may embark on development of advanced nuclear.
    Senator Sullivan. Great. Thank you.
    Mr. Wright. And I think vigilance. You have to pay 
attention to it every day, and don't accept anything at face 
value. You have to just review it all the time. Safety is No. 
1.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Sullivan.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman. Let me yield to my 
time, at this point, to Senator Booker.
    Senator Booker. I wanted to go really quickly here.
    Chairman Svinicki, as my colleague said, it is really 
exciting; billions of dollars of investment, private 
investment, are really invested in advanced nuclear reactors. 
It is incredible. The next generation of reactors is going to 
be more safe, more efficient. I worry, though, the NRC has a 
lot of experience in licensing water cooled reactors, but 
limited experience with advanced non-water cooled designs.
    Yes or no, do you think the NRC should move forward to a 
more technologically inclusive risk informed regulatory 
framework for advanced reactor licensing?
    Ms. Svinicki. Yes, and we have begun to develop that, but 
we have work yet to do.
    Senator Booker. A lot of work, in my opinion. And I am 
grateful for the work you are putting in.
    These advanced reactors, these sub-critical reactors, these 
advanced fusion reactors are, to me, very, very exciting. Do 
you believe, yes or no, that the NRC should subject these 
technologies to the existing regulatory framework design, or 
would you expect the NRC, instead, to quickly develop a more 
appropriate risk based regulation for these types of inherently 
safer technologies?
    Ms. Svinicki. Senator, we should move forward on the 
development of a new framework, but if a designer comes in and 
seeks approval now, although it might be inefficient, I think 
we should try to get started. So we should do both at the same 
time.
    Senator Booker. I am grateful for that. Just wanted to get 
that on the record.
    Ms. Bodine, I just want to switch to you because I have a 
great degree of alarm at the state of our country's 
environmental well-being, especially as it affects the poorest 
amongst us, minorities, tribal communities. In fact, 50 years 
of research reveals that these minority, low income, and tribal 
communities are more likely to be exposed to really serious 
environmental contaminants, public health hazards.
    I have begun to visit these around the United States of 
America, and it is literally stunning, the condition of some 
communities, as you know. Even Reuters just released a report 
about lead poisoning with communities, over 1,000 communities 
having more than twice the lead poisoning blood levels than 
even Flint does.
    And this is why I am really alarmed. You all will, in OECA, 
have EPA's environmental justice program which is charged with 
identifying these problems and health disparities for minority 
and low income populations. That falls underneath the purview 
of OECA. So I was stunned with President Trump proposed to 
eliminate funding in 2018 for the Office of Environmental 
Justice. So I just have three quick questions.
    One is, do you believe that there is a problem in America 
with certain communities that are adversely affected by 
outrageous circumstances of environmental injustice?
    Ms. Bodine. Yes, I believe there can be adverse effects on 
low income or minority populations.
    Senator Booker. So, yes, there is a persistent problem with 
environmental injustice in this country in certain communities. 
Yes, correct?
    Ms. Bodine. Yes.
    Senator Booker. All right. So, if confirmed, will you 
commit, in a nation where we literally swear an oath, you and 
I, that we will be a country of liberty and justice for all, 
will you commit to making environmental justice a top priority 
to alleviate the injustice going on in certain poor and 
minority communities?
    Ms. Bodine. Environmental justice is important to all the 
EPA program offices, and the President's budget states that 
each program office will continue to incorporate environmental 
justice into their programs. That includes the enforcement 
program.
    Senator Booker. And that will be a priority for you?
    Ms. Bodine. Yes.
    Senator Booker. OK. I don't have much more time. Because if 
it is my children living in places with cancer alleys, higher 
instances of respiratory diseases--right now I live in Newark, 
New Jersey. We have Superfund sites in our community, at a time 
where there is no resources to clean them up. And I have seen 
the longitudinal data. I hope you have studied it. Children 
born in those areas, if you are a pregnant woman, 20 percent 
higher rates of autism, 20 percent higher rates of birth 
defects. It should be a priority, and it should be an urgency.
    So will you commit to me right now that your office will 
advocate within the Administration for the environmental 
justice office to remain funded at least at 2017 levels so we 
as a nation can pursue, fight for, and establish environmental 
justice in our nation?
    Ms. Bodine. So that office hasn't always been located in 
OECA, and according to the President's budget request, the 
cross-program functions of that office are going to be carried 
out out of the Office of Policy and the Office of the 
Administrator. And each program office is going to continue to 
carry out their environmental justice functions.
    I used to head up the office that carried out Superfund and 
RCRA, and we had environmental justice considerations very 
front and center in carrying out the decisions of whether it 
was Superfund or the hazardous waste sites.
    Senator Booker. So you are telling me that you don't think 
it is your purview to be pursuing environmental justice in 
these communities that are so adversely impacted?
    Ms. Bodine. I didn't say that, Senator.
    Senator Booker. So will you explain to me? Because I am 
going to have to vote on your confirmation, which I will not do 
unless I know you are going to be a champion for communities of 
color and communities of poverty.
    Ms. Bodine. Yes, I will be a champion for communities of 
color and communities of poverty, and those functions are going 
to be carried out, under the President's budget, both in the 
program offices, which includes the enforcement office, as well 
as out of the Administrator's office, which would, I assume, 
continue to support the advisory committee, as well as there is 
a tool that is called EJSCREEN that is a GIS-based tool that 
you can go and look and see where there might be populations 
that are either low income or are also minority populations.
    To me, the most important component of carrying out these 
environmental justice responsibilities is talking to people so 
that you know where there might be these disproportionate 
impacts, because our environmental laws are set to protect 
everyone, but there can be disproportionate impacts based on 
location, and we have a screening tool that allows us to 
examine that. We also need to talk to the communities so we 
understand what people's exposures are. That is something that 
is important across the board.
    Senator Booker. My time has expired.
    Senator Barrasso. Thank you, Senator Booker.
    I would like to introduce for the record a letter from an 
Obama administration EPA general counsel under Administrator 
Gina McCarthy, Avi Garbow, who writes, ``Based on my 
experience, Ms. Bodine possesses a strong intellect, a keen 
understanding of environmental law and policy, and is 
respectful and responsive. She is a seasoned environmental 
lawyer and a skilled advocate.''
    I ask unanimous consent to enter this into the record. It 
is a June 12, 2017, EPA.
    Senator Carper. I object. No, I am just kidding.
    [Laughter.]
    Senator Barrasso. Thank you.
    Senator Carper. I don't object.
    Senator Barrasso. You don't? Thank you.
    [Laughter.]
    Senator Carper. You have to liven things up here just a 
little bit. Loosen them up, anyway.
    [The referenced information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Question for the Nuclear Regulatory 
Commission nominees. The State of Wyoming is in the process of 
applying to become what is known as an agreement State in order 
to regulate uranium recovery. It is home to over 60 percent of 
the nation's uranium production, and I anticipate Wyoming is 
going to submit its application sometime later this year.
    If confirmed, will you ensure that the Commission gives 
this application fair consideration and makes a timely 
decision?
    Ms. Svinicki. Yes, Senator, I will. And there is funding 
requested to support our part of that review in the fiscal year 
2018 budget.
    Ms. Caputo. Yes, I will, Senator.
    Mr. Wright. Yes, sir.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Let me yield to Senator Duckworth and thank her for coming 
today.
    Senator Duckworth. I thank the Ranking Member.
    Thank you, Mr. Chairman.
    I would like to start by submitting an op-ed co-authored by 
Mary Gade, former Administrator of EPA Region 5 under President 
Bush, and also Howard Lerner, from the Chicago Sun-Times for 
the record. It is called ``Trump EPA Plan Endangers a Global 
Gem--our Great Lakes.''
    Senator Barrasso. Without objection.
    Senator Duckworth. Thank you.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Duckworth. The article explains why eliminating or 
moving EPA Region 5 would be a grave mistake. As these authors 
describe it, closing the region would be ``penny-wise and pound 
foolish, just like the flawed choice to seek short-term cost 
savings that resulted in the Flint contaminated water 
tragedy.''
    Ms. Bodine, I am interested in understanding your view on 
this. I know we discussed this during our meeting, but your 
answer focused on the process of closing offices, not on your 
opinions as an enforcer. Do you believe eliminating EPA Region 
5 would improve or harm enforcement?
    Ms. Bodine. Senator, I haven't seen any analysis that would 
support that. And as I observed to you in your office, Region 5 
is a very large region. I also further note that there is no 
request in the President's budget for any funding to eliminate 
any regions.
    Senator Duckworth. But given the size of Region 5, if it 
were eliminated, would it make it easier or harder to enforce 
rules and regulations that help protect our environment?
    Ms. Bodine. So, again, without understanding how the 
resources would be picked up, I don't have an answer to your 
question.
    Senator Duckworth. OK. Well, I understand that you are not 
the----
    Ms. Bodine. But I am also not aware of any plan. I am not 
aware of any plan to close Region 5.
    Senator Duckworth. So I am trying to figure out your view 
on this from a pure enforcement perspective. Would it increase 
or decrease enforcement if Region 5 were to be shut down?
    Ms. Bodine. If all the resources were simply transferred to 
another region, it would be the same. But, again, I haven't 
seen any plan to do any of that.
    Senator Duckworth. But you just said how large Region 5 is. 
If you move the EPA office for Region 5 somewhere else, the EPA 
certainly would not be able to respond rapidly to instances 
when they are needed. For example, we had tornadoes all 
throughout Illinois, and oftentimes EPA is among the first to 
respond. But if you shut down Region 5, and you moved it 
somewhere else, say Kansas or somewhere else, do you think that 
you could still respond adequately to any type of enforcement 
requirement?
    Ms. Bodine. Some of our other large regions actually have 
separate offices, they have State offices, like the Montana 
office. Obviously, there is an Alaska office. Now, I would 
observe that maybe that would be less efficient if we had to 
open up other offices, but again, my assumption would be any 
plan--and again there is none--but if there were to be a plan, 
it would have to examine all of those issues, including that 
very valid issue you just raised about response time.
    Senator Duckworth. Well, I will certainly hold you to that.
    As the chief enforcement officer, you will be responsible 
for setting the enforcement goals for the Agency, and this 
Agency is tasked with safeguarding communities against 
pollution. What goals will you set, and what areas do you think 
would demand your attention?
    Ms. Bodine. Thank you, Senator Duckworth. As I said earlier 
in response to Senator Inhofe, I want to look at the 
performance measures because I want to help focus on outcomes. 
So I want to sit down with the enforcement staff at EPA and 
talk about what goals they think would be appropriate to 
achieve the environmental outcome; that is compliance, that is 
reduction in pounds of pollutants, that is pounds and cubic 
yards of waste that is being cleaned up. Those type of outcome 
measures are ones that I would like to focus on.
    Senator Duckworth. So how would you be able to achieve 
those types of measures, those types of goals, with the 
diminished resources that the Trump administration is 
proposing; budget cuts, hiring freezes, regional office 
closures? How would you be able to do your job?
    Ms. Bodine. Again, EPA's enforcement is going to be working 
with the States, and if confirmed, I would want to work with 
the States to make sure that they are carrying out the base 
programs and that EPA would be focusing on the larger cases, 
the cases where they have facilities crossing State lines, the 
criminal enforcement cases, again, targeting the most egregious 
cases, targeting the cases with the greatest return. And by 
taking those actions it still creates an enforcement deterrent 
because EPA is out there taking these actions.
    Senator Duckworth. So you basically are saying you are 
going to hand over many of those routine functions, say, to 
make sure that there is no lead in the water supply onto the 
States. That didn't work out very well in Michigan at all. In 
fact, it failed miserably, and there are children now living 
with long-term effects of that, and I don't think that is 
acceptable.
    Ms. Bodine. So you are describing what is already true 
under our statutes. A State like Michigan, for example, is a 
primacy State under the Safe Drinking Water Act and does have 
primary enforcement responsibilities. EPA has a responsibility 
to make sure that States are carrying out those functions. 
There is something called the State review framework, where EPA 
and the States get together, and they evaluate the other 
States.
    Senator Duckworth. But that obviously failed in Michigan, 
and obviously it did not work. EPA had the ability to step in 
and stop what was happening in Flint and did not, and failed to 
do so. And I have Galesburg, Illinois, that has lead in the 
water supply right now. We have lead in water in Chicago, and I 
am fearful that EPA, under you, is not going to do its job in 
regulating and making sure that we hold people accountable.
    Ms. Bodine. May I respond, Senator? Flint wasn't a normal 
situation, and if I am confirmed, I would want to make 
absolutely certain that the EPA staff who are enforcement staff 
in the regions, as well as the headquarters, that if they see a 
situation like that where, as you point out, it was a tragedy, 
children were being affected by lead, that they need to report 
up, because we need to know about it.
    Senator Duckworth. My problem is that the Trump 
administration cuts the budget to have those staff on the 
ground, so you won't have anybody there in order to do that.
    I am way over time, Mr. Chairman. I apologize. I yield 
back.
    Senator Barrasso. Thank you, Senator Duckworth. I 
appreciate your comments.
    I had a question for the Nuclear Regulatory Commission 
nominees. I would like each of you to tell me what you think 
the biggest challenge is today for the Nuclear Regulatory 
Commission, what it currently faces and how, if confirmed, you 
would address it.
    Ms. Svinicki. I would, in this moment, identify that 
enhancing our agility is a significant challenge for the 
Agency. When I joined the Commission in 2008, there was an 
envisioned nuclear renaissance. Many new reactors were 
envisioned being under construction, and it is hard, in a large 
organization, when we don't face those circumstances today, to 
size ourselves and adjust our processes for the energy system 
that we have today, not the energy system that the United 
States predicted 10 years ago. So, as an Agency, we need to be 
able to resource and size ourselves in an agile way.
    Senator Barrasso. Ms. Caputo.
    Ms. Caputo. I would agree with that. One of the challenges 
I think that we have watched certainly here in this Committee 
is, like the Chairman said, the shift from burgeoning growth in 
the industry to now a decrease, and yet we will see more change 
coming as advanced reactors blossom and develop and begin to 
seek licenses at the Agency. So, as she said, agility and being 
able to position staff to manage those workload changes I think 
remains the biggest challenge.
    Senator Barrasso. Mr. Wright.
    Mr. Wright. I totally agree that right sizing the Agency 
and streamlining is important. Obviously, we need to make sure 
that our human capital is used the right way and that we have 
the right expertise to do what we need to do.
    Senator Barrasso. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Senator Markey has been in and out several times.
    Senator Markey, why don't you go ahead?
    Senator Markey. Have you gone yet?
    Senator Carper. Go ahead, go ahead.
    Senator Markey. I appreciate it. Thank you.
    Let me start with a major issue facing the Nuclear 
Regulatory Commission: how to ensure the safety of spent 
nuclear fuel. According to an article in Science Magazine by 
physicists from the Union of Concerned Scientists and Princeton 
University, the NRC has drastically underestimated the risks 
from a fire at a spent fuel pond. The NRC's analysis has 
underestimated both the probability of a spent fuel fire and 
its consequences. As a result, the NRC has understated the 
benefit to the public of moving fuel from risky pools over to 
safer, dry cask.
    One of the Princeton authors of the new study ran a 
simulation of the area that could be irradiated by a spent fuel 
pool fire at the Pilgrim Power Station in Massachusetts if such 
a fire occurred under summer weather conditions when beach 
season is getting started. As you can see from the orange 
contour, the impact of that fire would be devastating. Across 
Massachusetts, Rhode Island, Connecticut, the consequences of 
such an event would be absolutely catastrophic.
    The scientists who did the analysis indicated that the cost 
of the fire could be upwards of $2 trillion nationally, an 
economic disruption. By contrast, the Nuclear Regulatory 
Commission's estimate of the financial consequences was 20 
times less. And the Commission used that estimate to dismiss 
the benefit of dry cask storage, which would only cost $50 
million per reactor.
    So, by dramatically reducing the cost that would occur if 
such a fire did hit a nuclear power plant, the NRC, in its 
cost-benefit analysis, is able to avoid forcing the utilities 
to move from the spent fuel pools over to dry cask.
    Do any of you disagree that the NRC should apply state of 
the art science when making decisions about safety?
    Ms. Svinicki. Senator, of course I am in agreement that the 
correct science should be applied. The NRC staff has done a 
quick review of the article that you referenced. They have 
looked at whether it presents different scenarios that were 
unanalyzed by the NRC. They did not identify anything in this 
preliminary review, but their look is ongoing, so if I may 
respond for the record if there is additional comparative 
details that they can provide.
    Senator Markey. Well, it is a pretty blistering, scalding 
indictment. It basically concludes that there was an 
underestimation of the time to clean up after that kind of 
contamination hit such an area; it failed to account for the 
risk of a terrorist attack at a nuclear power plant that would 
seek to ignite a fire with these spent fuel pools; and it 
actually failed to consider the economic consequences broadly 
of what the impact would be, including after Fukushima, the 
shutdown of nuclear power plants, whether or not that same 
thing would occur in our own country.
    So your staff has not done you a good service if they have 
evaluated the article and not come back, then, with the 
analysis of these vulnerabilities that have been identified by 
the Princeton scientists in the evaluation done by the Nuclear 
Regulatory Commission.
    Have you had a chance to read that Science Magazine 
article?
    Ms. Svinicki. I have not, Senator.
    Senator Markey. Have any of you read the Science Magazine 
article?
    Ms. Caputo. I wasn't aware of it.
    Senator Markey. Well, again, this just goes to the whole 
issue of what the impact is, ultimately, on an area when a fire 
like that could occur. So I recommend to you that you read it, 
because I am going to keep coming back on it in terms of the 
impact.
    Ms. Bodine, last year I did a report entitled ``The ABCs of 
PCBs, A Toxic Threat to America's Schools.'' We have up to 14 
million students nationwide, nearly 30 percent of America's 
school-aged population may be exposed to PCBs for hours every 
day in their schools. In the President's budget, President 
Trump cuts the budget by 34 percent to be able to deal with 
these issues.
    How will it be possible, Ms. Bodine, for the Trump 
administration to deal with this kind of exposure to PCBs of 
students in cities and towns all across our country if there is 
a 34 percent reduction in the EPA budget to be able to ensure 
that there is compliance?
    Ms. Bodine. Senator Markey, if confirmed, I would look into 
the issue you are raising about the PCBs in schools and, again, 
as I said earlier, OECA, the Federal EPA enforcement is going 
to continue to focus on cases with the most impact. That might 
be one of them. And the delegated States, authorized States are 
going to carry out the core basic mission, which they are 
already doing. ECOS likes to put out the statistic that 96 
percent of the environmental statutes and work is being carried 
out by States already.
    Senator Markey. Well, here President Trump is going to make 
sure that children in schools all across the country are going 
to be more exposed to PCBs in their classrooms, and saying to 
States and local communities, good luck, you take it over. The 
EPA had responsibility. So to the extent to which there is a 34 
percent reduction in the Trump EPA budget for that issue, you 
can be sure that the States will try to intervene, but the 
reason there is a Federal program is because it is so 
pervasive, so hard, and actually part of a policy back in the 
1950s and 1960s, all the way up to 1979, when PCBs were kind of 
given a free pass. And I blame the Federal Government on that, 
which is why we had to upgrade the Toxic Substances Control Act 
last year.
    Mr. Chairman, I want to compliment you, Mr. Chairman, on 
the rewrite of TSCA last year, but this 34 percent cut in this 
budget is just disgraceful. It really is going to put children 
all over our country at great unnecessary risk that could have 
been avoided if the President didn't cut that budget for 
children to be protected.
    Mr. Chairman, I have other questions for the witnesses that 
I will submit to you for the record and with my hope that the 
witnesses will answer them. Thank you, Mr. Chairman.
    Senator Inhofe [presiding]. Thank you, Senator Markey.
    Senator Carper, let me put four things into the record.
    Senator Carper. Go right ahead.
    Senator Inhofe. So I won't forget.
    Ask unanimous consent a June 12, 2017, EPA press release 
that includes statements in support of the EPA nominee from six 
Democrats, six Republicans, and two association leaders.
    Without objection.
    The six letters in support of the EPA nominee, two letters 
in support of the NRC nominees, one statement for the record 
from Senators Heller and Cortez Masto. Without objection, I ask 
that they be made a part of the record.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    I know several of my colleagues have drilled down on the 
question of funding for EPA, particularly funding for the 
efforts of the Agency that you would lead if confirmed, Ms. 
Bodine.
    I asked my staff to go back and to share with me, and I 
will share with you, what happened to EPA funding overall in 
the last Administration. Some people would say, well, it 
probably went up. Well, it didn't. In fact, it was reduced 
overall for those 8 years by about 20 percent, about 3 percent 
a year, something like that. So this Administration has not 
inherited a robust budget level of funding for EPA.
    The Administration would further reduce overall in their 
budget proposal funding for the EPA by about a third overall. 
For the Agency that, if confirmed, you would lead--reduction 
would be about another roughly 24 percent. And the States in 
this program are what we call a policy of cooperative 
federalism, the States who share responsibility with the 
Federal Government on making sure the environment is clean and 
safe. This Administration would reduce the budget for the 
States to do their share by almost half.
    Now, that may not concern you. As a former Governor, it 
concerns me. It concerns me. We are talking basically by 
reducing by half over the last 10 years, 9 years, reducing by 
half the resources available to do the job in your Agency, and 
also by half for States to do their share in enforcement.
    Does that trouble you? Does that concern you?
    Ms. Bodine. So I don't believe that the State cooperative 
federalism grant budget is being cut in half. I don't have the 
exact number in front of me.
    Senator Carper. I believe it is 44 percent. Forty-four 
percent.
    Ms. Bodine. I will have to look at those numbers.
    Senator Carper. Can't make this stuff up.
    Ms. Bodine. I would point out that the environmental 
counsel of the States, their report on cooperative federalism 
that they issued yesterday, they point out that they are 
calling for a recalibration of State and Federal roles, and 
they say that that can lead to more effective environmental 
management at lower cost.
    Senator Carper. We are going to move off of this, but this 
is a source of real concern, certainly to our side of the 
aisle, and we will come back to this later.
    You were all asked three questions before you testified, 
and one of the questions you were asked--I think it was the 
second question asked, was, do you agree to ensure the 
testimony, briefings, documents, and electronic, and other 
forms of information are provided to this Committee and its 
staff, and other appropriate committees, in a timely manner? 
Each of you said yes. Each of you said yes. I want to take you 
at your word. I know a couple of you pretty well. I know Ms. 
Svinicki very well, have a high regard for her.
    But I am going to come back and sort of ask that question, 
Ms. Bodine, in a different way. You are a current Senate 
staffer and one who is, I think, highly regarded.
    I am troubled in this situation. I think other folks on our 
side are troubled. I think Republicans would be troubled if we 
had a situation, if they faced a situation, our Republican 
friends faced a situation where Democrats were a majority in 
the House, majority in the Senate, and also had the presidency, 
the White House, and our Republican friends wanted to get their 
questions answered from this Administration, from a Democratic 
administration, and that Democratic administration basically 
would put out direction from the Administration to say you 
don't have to respond to the minority. You don't have to 
respond to the minority.
    How do you think the Republicans would take that? You have 
been around here for a while. How do you think they would take 
that?
    Ms. Bodine. I have worked for Congress for 13 and a half 
years in my career, and I have deep respect for the oversight 
responsibility of Congress. If confirmed, my bias would always 
be to respond to any Member of Congress, whether the majority 
or the minority, and certainly would not see that there would 
be any change in practice from EPA.
    Senator Carper. I don't have much time left. One second. I 
hope the Chairman will be generous with me.
    He cares a lot about oversight. I do as well. When you have 
one team, whether it is all Democrat or Republican, whoever is 
on the outs, whoever is in the minority, they are more likely 
to do real oversight.
    There is almost an inclination if you happen to be 
Republican, the White House, the House and the Senate are all 
Republican, there is less of an inclination to do the kind of 
tough oversight that is needed, and it falls to the minority. 
And when the minority can't have our questions responded to, as 
has turned out to be the case repeatedly here, and especially 
when the White House itself says don't answer those guys, you 
don't have to answer those guys, that is deeply troubling, I 
think for any of us. I don't care what party we are part of.
    Let me ask a question, if I can. I will come to the 
Chairman of the NRC, if I could. A lot of questions have been 
asked of you already. Is there a question that we should have 
asked, that we should have asked that hasn't been asked? Is 
there a question that you think ought to be asked that hasn't 
been asked? I have several more, but what do you think?
    Ms. Svinicki. I don't know that it is a very good strategy 
for me to propose a question that is particularly tricky, 
because the tricky questions are the ones you should be asking, 
but maybe why I am here for a third term, which I never could 
have conceived of, to tell you the truth, Senator. But I have 
developed a strong commitment and devotion to the NRC and its 
people. Candidly, this is a town of great opportunity if you 
are a hard worker, but I couldn't think of anything that was a 
better application of what I know right now.
    So, again, if the Senate acts favorably on my nomination, I 
am very, very honored to continue. I have had some friends and 
family question my sanity, but I am very committed to this work 
if I am allowed to continue.
    Senator Carper. Well, Senator Inhofe and I have sat here in 
these seats in the past, and you sat there, and we have watched 
some very, very difficult questioning and a lot of, frankly, 
discomfort among the five NRC Commissioners, and things seem to 
have, I will say, quieted down, and there seems to be a more 
collaborative willingness to develop consensus. How do you 
explain how this has happened?
    Ms. Svinicki. I don't know, but I would observe that we 
appear to be bucking the trend. I think that we have, again, 
people of strong care and commitment. We had another Senate 
hearing last week, and Senator Alexander remarked upon he 
observed from the dais the same collegiality amongst the 
serving members of the Commission. I indicated that to us 
collegiality is separate and distinct from agreeing, 
necessarily, on any particular matter; that collegiality is the 
overriding behavior, and we may disagree on individual matters, 
but collegiality is the imperative, and I think it is a shared 
value.
    Senator Carper. Mr. Chairman, I was out in California 
during the Memorial Day recess and met with a bunch of 
companies out there between San Francisco and San Jose doing 
exciting and interesting things with technology and innovation 
and job creation. I asked one of the big electric utilities out 
there, I said, where do you see growth? Because that particular 
utility, PG&E, they are actually providing a lot of incentives 
for their customers, business and otherwise, to use less 
electricity.
    I said, how do you consider your stay in business and be 
profitable? You know what they said? They said there is, over 
the horizon, a huge demand for electricity that is going to 
come from electric vehicles. Electric vehicles. And I was at a 
place where they were making buses, huge buses that carry like 
50 people, and they go 300 miles between charges. Three hundred 
miles.
    So there is a huge--going to be, I think, growing demand 
for electricity, actually part of the vehicles, trucks, and 
buses that they would ride in, and I think, in order to meet 
that need, part of that generation of electricity has to come 
from nuclear, and we are seeing one plant after the other after 
another close and be noticed for foreclosure.
    As we all know, nuclear doesn't put out any sulfur dioxide 
or nitrogen oxide or carbon dioxide, no mercury, and it has to 
be part of our solution, and we just want to work with you to 
continue to address that need and to make sure that nuclear is 
an important part of the mix.
    Mr. Chairman, I would like to submit for the record, if I 
could, a survey done by the National Association of Clean Air 
Agencies, which shows State agencies are deeply troubled by the 
Trump budget cuts, and it will impact what States can do in 
regards to clean air. I ask for unanimous consent.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Again, we thank you all for being with us 
today. Especially thank your families. Annie, I would just say 
that your children have been very well behaved and your husband 
unusually well behaved.
    Ms. Caputo. Thank you.
    [Laughter.]
    Senator Carper. We applaud them all.
    Thank you very much.
    And let me just say to your mom, Mr. Wright, David, Ms. 
Wright, my mom and her mom were born on the same day. Same day, 
August 18th. I always called my mom on her birthday, but I 
always call my mom on my birthday, too, which is January 23rd, 
just to thank her for bringing me into the world. Those are 
some of the most memorable conversations I think I have ever 
had.
    Mr. Wright. I agree.
    Senator Carper. Thank you.
    I want to thank your mom for having your back today.
    Mr. Wright. She has always had my back. I brought her as my 
body guard today.
    Senator Inhofe. Well, let me just make a comment.
    I do agree with a couple of the things that my good friend, 
Senator Carper, has said, and I disagree with some, obviously. 
One of the things I have learned, and we talked about this a 
couple hours ago, was the first subcommittee that I chaired was 
1996, and it was this subcommittee, and the subcommittee, at 
that time, was relieved that they were actually going to get 
oversight. You don't expect that, really, from a bureaucracy. 
But they had had no oversight for 4 years, so they really 
didn't have any direction. It was as if nobody cared and no one 
was looking.
    Right now it is a different environment altogether. I think 
people realize that this kind of resistance to nuclear energy 
that has been out there has been overcome to a great extent. It 
is going to have to be part of the mix. When I have said all of 
the above, it has always include that. By the way, we do have 
some deadlines that we have to meet so that we will be able to 
continue our operations.
    Is it all right if I go ahead with our final remarks?
    Well, if there are any more questions for today, members 
may submit follow up written questions for the record. They are 
called QFRs. We are not talking about 1,600 like Pruitt had to 
go through, but questions for Ms. Svinicki by the close of 
business today, Tuesday, the 13th of June. Ms. Svinicki should 
respond to those questions by close of business tomorrow, 
Wednesday, June 14th.
    With the agreement of Ranking Member Carper, I am 
expediting the QFR process regarding Ms. Svinicki's nomination 
because the Committee will vote on her nomination this 
Thursday. By reporting her quickly, it is our hope that we can 
expedite her confirmation through the full Senate so that the 
Nuclear Regulatory Commission does not lose its quorum when her 
current term expires at the end of June.
    Senator Carper. Mr. Chairman, just for clarification, how 
long would she have to respond?
    Senator Inhofe. I am going to go back and reread this, 
because this was an agreement that the Chairman that I am 
sitting in for right now came to.
    Senator Carper. Our staff says 1 day, so that would be like 
noon tomorrow. Close of business tomorrow. OK, we are fine with 
that.
    Senator Inhofe. It is my understanding that was an 
agreement that was had.
    Senator Carper. Sounds good.
    Senator Inhofe. Members may also submit follow up 
questions, follow up written QFRs for Ms. Caputo, Mr. Wright, 
and Ms. Bodine by close of business this Thursday, June 15th. 
The nominees should respond to those questions by close of 
business the following Thursday, June 22nd.
    All right, I want to thank the nominees for their time and 
their testimony today, and we are adjourned.
    [Whereupon, at 11:50 a.m. the Committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
